Allyson N. Ho
Direct: +1 214.698.3233
Fax: +1 214.571.2971
AHo@gibsondunn.com

September 26, 2019
VIA ELECTRONIC FILING
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 19-403, Alabama-Coushatta Tribe of Texas v. Texas

Dear Mr. Harris:
I am counsel of record for petitioner in the above-referenced case. Petitioner
hereby consents to the filing of any amicus curiae brief relating to the petition for
a writ of certiorari, in support of either party or of neither party, provided that
the amicus curiae brief otherwise complies with the Rules of this Court.
Respectfully submitted,

Allyson N. Ho

